     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601

September 14, 2010

Report Number: A-05-10-00018

Mr. Jason Helgerson
Administrator
Division of Health Care Access and Accountability
Wisconsin Department of Health Services
1 West Wilson Street, Room 350
Madison, WI 53701

Dear Mr. Helgerson:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Personal Care Service Claims Submitted
by Dane County Department of Human Services and Claimed by Wisconsin From July 1, 2006,
Through June 30, 2008. We will forward a copy of this report to the HHS action official noted
below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-05-10-00018 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Jason Helgerson



HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601

cc:
Ms. Lynn Green
Director
Dane County Department of Human Services
1202 Northport Drive, 4th Floor
Madison, WI 53704
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




     REVIEW OF MEDICAID
   PERSONAL CARE SERVICE
     CLAIMS SUBMITTED BY
        DANE COUNTY
DEPARTMENT OF HUMAN SERVICES
  AND CLAIMED BY WISCONSIN
 FROM JULY 1, 2006, THROUGH
        JUNE 30, 2008


                        Daniel R. Levinson
                         Inspector General

                         September 2010
                          A-05-10-00018
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Wisconsin’s Medicaid Program

In Wisconsin, the Department of Health Services (DHS) is the State agency responsible for
operating the Medicaid program. Within DHS, the Division of Health Care Access and
Accountability administers the Medicaid program. DHS contracts with a private vendor for the
State, to process and pay Medicaid claims through its Medicaid Management Information
System (MMIS), including personal care services claims. During the period July 1, 2006,
through June 30, 2008, the Federal medical assistance percentage varied from 57.47 to 57.65
percent.

Federal Requirements Related to Personal Care Services

Pursuant to section 1905(a)(24) of the Act and implementing Federal regulations (42 CFR §
440.167(a)), personal care services must be: (1) authorized for an individual by a physician in
accordance with a plan of treatment or a service plan approved by the individual State; (2)
provided by an individual who is qualified to provide such services and who is not a member of
the individual’s family; 1 and (3) furnished in a home or in another location.

The Office of Management and Budget Circular A-87 establishes principles and standards for
determining allowable costs incurred by State and local governments under Federal awards.
Section C.1.c of Attachment A of the Circular provides that to be allowable, costs must be
authorized or not prohibited by State or local laws or regulations.

Wisconsin’s Personal Care Services Program

Pursuant to Chapter HFS 105.17, Wisconsin Administrative Code (Code), Medicaid personal
care services may be provided by county departments, home health agencies, or independent
living centers. Chapter HFS 107.112 of the Code defines personal care services as medically-
oriented activities related to assisting a recipient with activities of daily living (ADLs) necessary

1
 In Wisconsin, a family member that is not legally responsible for the beneficiary can be a personal care worker.
Section 49.90(1) of the Wisconsin Statute defines a legally responsible relative as a spouse or the parent of a child
under 18 years of age.


                                                           1
to maintain the recipient in his or her place of residence in the community. These services shall
be provided upon written orders of a physician by a provider certified under HFS 105.17, and by
a personal care worker employed by the provider or under contract to the provider who is
supervised by a registered nurse, (RN), according to a written plan of care. The personal care
worker shall be assigned by the supervising RN to specific recipients to do specific tasks for
those recipients for whom the personal care worker has been trained.

Dane County Department of Human Services

Dane County Department of Human Services (Dane County) provides several services to the
community including personal care services. Dane County offers the Medical Assistance
Personal Care (MAPC) program to provide personal care services that include bathing, dressing,
and other ADLs, as well as some light housekeeping. The county subcontracts with 11 agencies
to manage and administer the MAPC program and each contracted agency uses the county's
Provider Number for billing purposes. During the period July 1, 2006, through June 30, 2008,
Dane County was paid over $23 million for Medicaid personal care services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our audit was to determine whether the State agency properly claimed Federal
Medicaid reimbursement for personal care services provided by Dane County.

Scope

We reviewed a sample of 100 personal care service line items totaling $8,203, submitted by
Dane County during the period July 1, 2006, through June 30, 2008. We did not review the
medical necessity or reasonableness of the services claimed. In addition, we did not review the
overall internal control structure of the State or the Medicaid program. Rather, we limited our
internal control review to the objective of our audit.

We conducted fieldwork at Dane County administrative offices in Madison, Wisconsin in March
2010.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal and State laws, regulations and guidelines;

   •    held discussions with State agency and County officials to gain an understanding of its
        personal care services program;

   •    obtained a population of Medicaid personal care services claims for the period July 1,
        2006, through June 30, 2008.


                                                2
   •   selected a random sample of 100 personal care service line items, totaling $8,203,
       submitted by Dane County; and for each sample item:

           o determined if the recipient was enrolled in the Medicaid program;

           o reviewed the personal care worker’s timesheet to determine if the related service
             was actually provided;

           o reviewed the provider’s certification requirements, recipient’s plan of care, prior
             authorization for services, personal care worker’s qualifications, nurse
             qualifications and nurse supervisory visits to determine whether the claim was
             allowable, and

           o determined if the related services were claimed at the correct rate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

The State agency properly claimed Federal Medicaid reimbursement for personal care services
provided by Dane County during the two-year period ending June 30, 2008. As a result, this
report contains no recommendations.




                                                3
